Case 3:21-cv-13063-FLW-TJB Document 10 Filed 07/09/21 Page 1 of 4 PagelD: 9

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

RICHARD ARJUN KAUL, MD,
Plaintiff,

Civil Action No. 21-13063 (FLW) (TJB)
ORDER

v.

PHILIP MURPHY, CHRISTOPHER J.
CHRISTIE, GURBIR GREWAL, ROBERT
MCGUIRE, AND DOREEN ANNETTE
HAFNER,
Defendants.

THIS MATTER having been opened by the Court on its own motion; it appearing that
pro se Plaintiff Richard Arjun Kaul, MD (“Plaintiff’) has filed a Complaint against Defendants
New Jersey Governor Philip Murphy, former-Govemor Christopher J. Christie, New JerseyAttorney General Gurbir Grewal, and Deputy Attorneys General Robert McGuire and Doreen
Annette Hafner (“Defendants”); it appearing that the matter was transferred to this District from
the United States District Court for the Southern District of New York on June 21, 2021, (ECF
No. 6); it appearing that Plaintiff paid the $402 filing fee required to commence a civil action.
(ECF No. 1-15); the Court having sua sponte reviewed the Complaint, makes the following
findings:
1. Under Federal Rule of Civil Procedure 8(a)(2), a complaint must “contain a short and plain
statement of the claim showing that the pleader is entitled to relief.” Id. Where a petition
is “illegible or incomprehensible,” Scibelli v. Lebanon Cty., 219 F. App’x 221,222 (3d Cir.

Case 3:21-cv-13063-FLW-TJB Document 10 Filed 07/09/21 Page 2 of 4 PagelD: 10

2007), or “not only of an unwieldy length, but... also largely unintelligible,” Stephanatos
v. Cohen, 236 F. App’x 785, 787 (3d Cir. 2007), Rule 8 dismissal is appropriate. See Rhett
v. N.J. State Super. Ct., 260 F. App’x 513 (3d Cir. 2008) (affirming dismissal of a
“complaint, [an] amended complaint, and [a] second amended complaint [that] all lacked
‘short and plain statements]’ and where specific allegations were neither ‘simple, concise,
[nor] direct’”); Tillio v. Spiess, 441 F. App’x 109, 110 (3d Cir. 2011) (approving dismissal
in “those cases in which the [petition] is so confused, ambiguous, vague, or otherwise
unintelligible that its true substance, if any, is well disguised”); Kamdem-Ouffo v. Huczko,
810 F. App’x 82, 84—85 (3d Cir. 2020) (same); Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d
Cir. 1988) (“When a complaint does not comply with the requirement that it be short and
plain, the court has the power, on its own initiative ... to dismiss the complaint.”); BennettNelson v. La. Bd. of Regents, 431 F.3d 448, 450 n.l (5th Cir. 2005) (same); see also
Himchakv. Pennsylvania, No. 17-1870, 2020 WL 1151456, at *3 (M.D. Pa. Mar. 10,2020)
(dismissing complaint for “effectively disguising any claim(s) of action”). “When the court
chooses to dismiss, it normally grants leave to file an amended pleading that conforms to
the requirements of Rule 8.” Salahuddin, 861 F.2d at 42. A district court may sua sponte
dismiss a complaint for failure to comply with Rule 8, but dismissal “‘is usually reserved
for those cases in which the complaint is so confused, ambiguous, vague, or otherwise
unintelligible that its true substance, if any, is well disguised.’” Tillio v. Northland Grp.
Inc., 456 F. App’x 78, 79 (3d Cir. 2012).
2. Plaintiff has been a frequent, vexatious litigant before this Court and has filed numerous
actions against various New Jersey state officials, federal officials, insurance companies,
and medical licensing entities relating to the revocation of his license to practice medicine

Case 3:21-cv-13063-FLW-TJB Document 10 Filed 07/09/21 Page 3 of 4 PagelD: 11

in 2014. Plaintiff refers to these cases as the “Kaul Cases. »1 In his Complaint, which,
including exhibits, is 475 pages long, Plaintiff alleges that on May 27, 2021, he was
“illegally arrested and imprisoned” as part of “a scheme engineered and orchestrated by
the Defendants, purported to obstruct justice, violate the authority of the United States
District Court and obstruct [Plaintiffs] prosecution of the Kaul Cases.” (Compl.

2-5.)

While Plaintiff appears to bring a claim against Defendants under 42 U.S.C. § 1983 for
violation of his Fourth Amendment rights, Plaintiffs allegations related to his May 27,
2021 arrest are sparse, at best. Rather, Plaintiff spends most of his 77-paragraph Complaint
referring to documents purportedly from the Kaul Cases, which he contends demonstrate
“the culpability of certain judges and Defendants.” (Id. f 8.) These incoherent references
to the exhibits attached to the Complaint disguise any potentially legitimate cause of action
against Defendants because it is unclear how his arrest, or any violation of the Fourth
Amendment, was related the Kaul Cases. Moreover, the Court is not required to wade
through these exhibits to discern facts that may support Plaintiffs claim. Accordingly,
Plaintiffs Complaint is dismissed without prejudice, and the Court will provide Plaintiff
leave to amend within twenty-one (21) days consistent with Rule 8 and other pleading
requirements. The amended complaint filed by Plaintiff, however, must be limited to
factual allegations which support his claim that his Fourth Amendment rights were violated
during his May 27, 2021 arrest.2

Indeed, Plaintiff has three other civil actions pending in this District. See Kaul v. Schumer,
No. 19-13477; Kaul v. Murphy, 21-9788; Kaul v. Feldman, No. 20-18853. Plaintiff recently filed
motions to voluntarily dismiss without prejudice both Kaul v. Murphy, No. 21-9788, ECF No. 23
(July 1, 2021), and Kaul v. Feldman, No. 20-18853, ECF No. 209 (July 7, 2021).
2

Plaintiff is advised that his amended complaint must include allegations that show that
Defendants were personally'involvedTrTh’is arrest. See Fvancho v. Fisher, 423'T733~3477353"(3d”

Case 3:21-cv-13063-FLW-TJB Document 10 Filed 07/09/21 Page 4 of 4 PagelD: 12

Accordingly, and for good cause shown,
IT IS on this 9th day of July, 2021,
ORDERED that Plaintiffs Complaint is DISMISSED WITHOUT PREJUDICE; and it
is further
ORDERED that Plaintiff is given leave to file an amended complaint, which complies
with this Order, within twenty-one (21) days of the date of this Order.
/s/ Freda L. Wolfson
Freda L. Wolfson
U.S. Chief District Judge

Cir. 2005) (“A[n individual government] defendant in a civil rights action must have personal
involvement in the alleged wrongdoing; liability cannot be predicated solely on the operation of
respondeat superior?” (alteration in original^
"

Additional material
from this filing is
available in the
Clerk's Office.

